<html>
<title> - OVERSIGHT OF THE U.S. ELECTION ASSISTANCE COMMISSION</title>
<body><pre>[Senate Hearing 116-74]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 116-74

                     OVERSIGHT OF THE U.S. ELECTION
                         ASSISTANCE COMMISSION

=======================================================================

                                HEARING

                               BEFORE THE

                 COMMITTEE ON RULES AND ADMINISTRATION
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                              MAY 15, 2019
                               __________

    Printed for the use of the Committee on Rules and Administration
    

                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]    


                  Available on http://www.govinfo.gov
                  
                  
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
36-452 PDF                 WASHINGTON : 2019                    



                 COMMITTEE ON RULES AND ADMINISTRATION

                             FIRST SESSION

                     ROY BLUNT, Missouri, Chairman

MITCH McCONNELL, Kentucky            AMY KLOBUCHAR, Minnesota
LAMAR ALEXANDER, Tennessee           DIANNE FEINSTEIN, California
PAT ROBERTS, Kansas                  CHARLES E. SCHUMER, New York
RICHARD SHELBY, Alabama              RICHARD J. DURBIN, Illinois
TED CRUZ, Texas                      TOM UDALL, New Mexico
SHELLEY MOORE CAPITO, West Virginia  MARK R. WARNER, Virginia
ROGER WICKER, Mississippi            PATRICK J. LEAHY, Vermont
DEB FISCHER, Nebraska                ANGUS S. KING, JR., Maine
CINDY HYDE-SMITH, Mississippi        CATHERINE CORTEZ MASTO, Nevada

                   Fitzhugh Elder IV, Staff Director
                Lindsey Kerr, Democratic Staff Director



                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                  Pages

                         Opening Statements of:

Hon. Roy Blunt, Chairman, a U.S. Senator from the State of 
  Missouri.......................................................     1
Hon. Amy Klobuchar, a U.S. Senator from the State of Minnesota...     2
Christy McCormick, Chairwoman, U.S. Election Assistance 
  Commission; Thomas Hicks, Commissioner, U.S. Election 
  Assistance Commission; Donald Palmer, Commissioner, U.S. 
  Election Assistance Commission; and Benjamin Hovland, 
  Commissioner/Vice Chair, U.S. Election Assistance Commission...     3

                        Prepared Statements of:

Christy McCormick, Chairwoman, U.S. Election Assistance 
  Commission; Thomas Hicks, Commissioner, U.S. Election 
  Assistance Commission; Donald Palmer, Commissioner, U.S. 
  Election Assistance Commission; and Benjamin Hovland, 
  Commissioner/Vice Chair, U.S. Election Assistance Commission...    23

                  Questions Submitted for the Record:

Hon. Roy Blunt, Chairman, a U.S. Senator from the State of 
  Missouri.......................................................   133
Hon. Amy Klobuchar, a U.S. Senator from the State of Minnesota...   141
Hon. Tom Udall, a U.S. Senator from the State of New Mexico......   149
Hon. Angus S. King, Jr., a U.S. Senator from the State of Maine..   150
Hon. Cortez Masto, a U.S. Senator from the State of Nevada.......   152


 
           
                     OVERSIGHT OF THE U.S. ELECTION
                         ASSISTANCE COMMISSION

                              ----------                              


                        WEDNESDAY, MAY 15, 2019

                      United States Senate,
             Committee on Rules and Administration,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:39 p.m., in 
Room 301, Russell Senate Office Building, Hon. Roy Blunt, 
Chairman of the Committee, presiding.
    Present: Senators Blunt, Fischer, Klobuchar, Durbin, Udall, 
and King.

  OPENING STATEMENT OF HONORABLE ROY BLUNT, CHAIRMAN, A U.S. 
               SENATOR FROM THE STATE OF MISSOURI

    Chairman Blunt. The Committee on Rules and Administration 
will come to order. Glad to welcome today our witnesses.
    This is an agency that is responsible for promulgating 
Voluntary Voting System Guidelines, certifying election 
systems, and assisting state and local election officials with 
information they need to run America's elections. The EAC can 
play an important role in assisting state and local election 
officials efforts to provide an accessible and secure election 
process. I think we all understand that the secure part and the 
reliable part of that election process is increasingly more 
important.
    As we look back at the 2016 elections and then the 2018 
elections, we were all reminded of how important it is that 
people believe that what happened at the voting place on 
election day is what really happened. You and I, and our 
Committee, working with the state and local election officials 
can have a big impact on that. A lot of the EAC's 
responsibility up until now has been largely without the kind 
of connections that I would hope to see more of, the money 
distributed under the Help America Vote Act was largely 
distributed in a per capita basis, without much indication as 
to what should happen with it, but this Commission as it was 
constituted, did distribute $380 million in grant money to the 
states that was included in the Fiscal Year 2018 spending bill. 
The agency's efforts have been important there and in trying to 
become that interface between the Federal Government, and state 
and local officials, as we try to be sure that we create cyber 
confidence, that we create cybersecurity, that we are sure that 
everybody that needs to talk to everybody is able to do that, 
and we have thought about that in advance.
    This is the first time in nearly 10 years we have a full 
slate of commissioners. I think a great obligation on our 
Committee but also on the Commission itself is to function with 
renewed vigor. Four EAC Commissioners are in place today. Their 
job is to, again, update the progress to give us what is 
happening with the Voluntary Voting System Guidelines, the 
agency's work, what are you doing to ensure that election 
officials around the country have the information they need, 
and that we are doing all we can to help them prepare for the 
2020 elections. I think this role can be important.
    I hope that the agency can live up to its potential, and if 
it cannot live up to its potential as it is currently 
constituted, that is something else that we should think about. 
But again, thanks to all the Commissioners for being here with 
us today. The new Chairman, Christy McCormick, the Vice 
Chairman Benjamin Hovland, no stranger to this Committee, 
Commissioner Don Palmer, and former Chairman and Commissioner 
Thomas Hicks are all here with us today. Senator Klobuchar.

 OPENING STATEMENT OF HONORABLE AMY KLOBUCHAR, A U.S. SENATOR 
                  FROM THE STATE OF MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman. Thank 
you, welcome to all of you, especially welcome back the Vice 
Chair. I think the last time I saw you here, there was some 
child involved in your confirmation hearing. For the first time 
as the chairman noted, since 2009, we have all four 
commissioners serving, which we are proud that we were able to 
get that done, so thank you.
    Operating at full capacity means that the EAC must have 
effective management, and I know that each of you and the staff 
at the Commission are working closely with states and other 
Federal agencies to prepare for the upcoming elections.
    It is vital that we work together on a bipartisan basis 
because election security is our country's security, and it 
does not matter if you are democrat or republican, you want to 
make sure that our elections are free of foreign influence. 
Recent news that Russian hackers successfully accessed election 
systems in two Florida counties. We just saw something on that 
this week where the Florida officials, the Governor and others, 
have been briefed by the FBI. It shows us that the interference 
we saw in 2016 and the ongoing threats to our elections are 
real and require a united front.
    These threats point to why the work of the EAC, the only 
Federal agency whose sole mission is to improve elections, is 
so important. Russia invaded our democracy. They did not use 
bombs, jets, or tanks. Instead, they planned a mission to 
undermine our foundation. Special counsel Mueller concluded 
that Russian interference in our democracy was in ``sweeping 
and systemic fashion.'' Russia conducted sophisticated 
influence operations noted in the Mueller report, hacked 
political committees and campaigns, targeted election 
administrators, and even private technology firms responsible 
for manufacturing and administering election systems.
    In Illinois, the names, addresses, birth dates, and partial 
Social Security numbers of hundreds of thousands of registered 
voters were exposed. Intelligence officials from the Trump 
Administration continue to warn that our elections are a 
continued target for our adversaries. So, we have a common set 
of facts about what happened, and we know there is a continued 
threat. What we need to do now is to figure out how we are 
going to address it with a common purpose and prepare for the 
next election.
    As we all know, right now 40 states rely on electronic 
voting systems that are at least 10 years old. I don't have to 
mention that because of course our adversaries already know it. 
12 states have no or partial paper ballot backup, so if 
something happened in one county in a closed state or in one 
state, an entire Presidential election could be up in the air 
and we then would not be able to prove what happened if we have 
no backup paper ballots. 16 states have no statewide audit 
requirement. These statistics are alarming because experts 
agree that paper ballots and audits are the baseline of what we 
need to secure our election systems.
    Thankfully some states are moving forward, updating in part 
because we work to secure the Federal money, in part because 
some of the states are acting on their own. All 50 states have 
submitted plans for how they plan to spend the grant funding 
and the Commission played a critical role in ensuring states 
received their funding as quickly as possible. From what I 
understand, states have spent about 30 percent of the fund so 
far and they are on track to spend the rest before the 2020 
elections. The $380 million was a good start but let us 
remember that it was 3 percent of the cost of one aircraft 
carrier. We were disappointed that the Elections Security Act 
did not advance to the floor.
    Senator Blunt tried his best to do that, and Senator 
Lankford and I as well as the other co-sponsors including 
Senator Burr and Senator Warner would really like to see that 
bill advance. The next elections are 538 days away, with the 
first primary in just 264 days--but who is counting. Every day 
we fail to take action to pass election security legislation is 
a wasted opportunity to make critical improvements to protect 
our democracy. I look forward to hearing from all of you about 
what we can do together. Thank you.
    Chairman Blunt. Thank you, Senator. Chairman McCormick we 
are going to let you--I believe you are going to give opening 
remarks for the entire Commission. I will note that your 
prepared remarks are in the record, but you can share those 
remarks in the next 5 minutes with us however you want to and 
then we will go to questions.

   OPENING STATEMENT OF CHRISTY MCCORMICK, CHAIRWOMAN, U.S. 
 ELECTION ASSISTANCE COMMISSION; ACCOMPANIED BY THOMAS HICKS, 
   COMMISSIONER, U.S. ELECTION ASSISTANCE COMMISSION; DONALD 
PALMER, COMMISSIONER, U.S. ELECTION ASSISTANCE COMMISSION; AND 
   BENJAMIN HOVLAND, COMMISSIONER/VICE CHAIR, U.S. ELECTION 
                     ASSISTANCE COMMISSION

    Ms. McCormick. Thank you. Good afternoon Chairman Blunt, 
Ranking Member Klobuchar, and members of the committee. Thank 
you for the opportunity to testify before you this afternoon to 
detail the vital work of the U.S. Election Assistance 
Commission, better known as the EAC.
    I am pleased to appear alongside my fellow commissioners to 
discuss the EAC's work to fulfill its mission as prescribed by 
the Commission's enabling legislation, the Help America Vote 
Act of 2002, or HAVA. While we each took diverse paths in 
coming to the EAC, we are in lockstep when it comes to this 
message: the Commission is as needed today as it has been at 
any other time since it was established, and we are at a 
critical crossroads with regards to having sufficient resources 
necessary to better support state and local election 
administrators and the voters that they serve. During the past 
year in particular, the leaders of this committee and other 
stakeholders have publicly echoed that same sentiment and 
voiced support for the EAC.
    We are emboldened by your confidence in our work as well as 
your continued support for our mission. Our intent is to 
harness your energy and feedback we hear each day from election 
officials across the Nation to ensure that the EAC has all of 
the resources it needs ahead of 2020. We are committed to 
maximizing our impact ahead of the next Federal election and 
providing services that not only meet but exceed expectations 
of those who are counting on us to do our job. With regard to 
doing our job, we have included a copy of the Commission's 2018 
annual report with our written testimony. In it are details of 
the Commission's robust achievements from last year, work 
accomplished by a small but talented and motivated staff who 
are firing on all cylinders to fulfill the EAC's mission. They 
not only do their own full-time jobs, but they are often called 
upon to pitch in whenever and wherever needed across our 
various programs, and they have willingly stepped up to the 
plate.
    The commissioners sincerely thank each member of EAC staff 
for their hard work and dedication, and we appear here today in 
part to stress the importance of their efforts and the need for 
additional resources to secure their sustainability. While 538 
days remain until the 2020 Presidential election, the first 
Federal--but who is counting--the first Federal Presidential 
primary is just 7 months away and election officials across the 
Nation are administering state and local elections now.
    As you have noted, the EAC is the only Federal agency 
solely devoted to supporting those officials in this work and 
helping America vote. HAVA established the EAC to serve as the 
Nation's foremost clearinghouse in elections; to conduct 
original research, such as the election administration and 
voting survey that informs ways to improve election 
administration; to establish Federal voting system testing 
guidelines and operate the Federal Government's voting system 
certification program; to administer Federal grant funding to 
states; to improve election administration and to help America 
vote. These resources give election administrators the tools 
they need to carry out secure, accurate, and efficient 
elections.
    The EAC's work also helps to ensure that all eligible 
Americans have the opportunity to vote privately and 
independently, to cast a ballot with confidence, and to know 
that the vote will be counted securely and accurately. Election 
security is a theme that continues to shape the national 
conversation about election administration, especially as we 
look ahead to 2020. Federal law enforcement and intelligence 
officials regularly remind us that the threats election 
administrators faced in 2016 and 2018 remain today and are 
likely to intensify in the months and years ahead. We take 
seriously the fact that voter confidence is enhanced when we 
adequately prepare for and respond to challenges such as 
election misinformation campaigns, persistent attempts to 
breach election systems and voting registration databases, and 
other very real threats.
    As the agency best positioned to communicate directly with 
election officials across the country, the EAC played an early 
and leading role in establishing trust and open lines of 
communications between state and local leaders, and the Federal 
Government entities that work on election security. The EAC 
drove the development of the election security working group 
that eventually became the sub-sector's Government Coordinating 
Council, or GCC, and I currently sit on that Council's 
executive board. In addition to the EAC's work with the 
Department of Homeland Security to establish the GCC, the 
Commission played an integral role in establishing the Sector 
Coordinating Council comprised of private election equipment 
manufacturers and vendors.
    We have taken a multi-faceted approach to helping state and 
local election officials strengthen their election security. 
This work includes testing and federally certifying voting 
systems, providing hands-on security and post-election audit 
training across the country, producing security-focused 
resources, disseminating security best practices information, 
and checklists to state and local election officials, as well 
as hosting widely attended forums that feature security experts 
as speakers.
    I see that my time is up. I can finish this statement, or 
we can go straight to questions, whichever you prefer.
    Chairman Blunt. Go ahead and take another minute to wrap up 
your statement.
    Ms. McCormick. Okay. The EAC does not have full time 
employees devoted to these new components of providing election 
security support. In fact, the EAC's Inspector General 
highlighted this staffing issue as a significant management 
challenge in 2018.
    At this time, existing staff in conjunction with their 
other full-time responsibilities, have been tasked with 
interacting with the agency's external partners to identify 
resources and materials that might be useful for election 
official stakeholders. With additional resources, the EAC would 
have the opportunity to fund additional election security 
activities within its election technology program. There is no 
shortage of ambition at the EAC when it comes to supporting 
this work but there is a stark shortage of funds for such 
activities. This shortfall means the Commission faces tough 
programmatic choices each and every day, and we hope you will 
consider that as you continue to work on next year's 
appropriations bills.
    And I will just wrap it up there. There is much more to our 
statement, but with the recent establishment of a quorum of 
commissioners, the EAC is ready for its next chapter. My fellow 
commissioners and I look forward to working with Congress as we 
continue our efforts to help America vote. We are happy to 
answer any questions you have following today's testimony.
    [The prepared Statement of Ms. McCormick was submitted for 
the record.]
    Chairman Blunt. Well thank you and we do have your 
statement in the record. I do not know that we have sat down as 
a group since the November 2018 elections. Give me a sense, and 
any or all of you can do this, give me a sense of how your 
interaction with state and local officials was different in 
2018 than it was in 2016, and part of that may be because of 
what you know and part of it may be because of what they knew 
they should be concerned about that they might not have had 
quite that same level of concern in 2018. This is not designed 
to be critical of anything you did in 2016 but how would you 
see the landscape on both ends of the Commission communication 
with state and local officials changing over that 2 year period 
of time?
    Ms. McCormick. Well we have seen, you know, Federal 
partners come together to bolster the elections community, and 
communications, I think, have increased greatly between the 
state and local elections officials and other Federal partners, 
both through the GCC and through our FACA groups. I think also 
that this is just on the top of everyone's concerns is to make 
sure that the elections are secure and that we are 
communicating any threats or concerns and ways that we might 
mitigate them going forward.
    So, there is just a lot more exchange of communication. We 
have a lot more work to do with communication, but it has 
greatly improved since 2016. The EAC has always been in 
communication with our state and local election officials but 
now with the addition of the Department of Homeland Security, 
the FBI, the Office of the Director of National Intelligence, 
and other intelligence agencies it is, I think, a much more 
coordinated effort to address some of the concerns that we have 
over threats to our election systems.
    Chairman Blunt. Anybody else want to address that?
    Mr. Hicks. Thank you, Chairman. I think that in 2016, as 
the chairwoman stated, we did go through a little bit of a 
communications lapse. I think that with 2018, with the EAC's 
help, I believe that we achieved a lot more communications 
between the states. We have always had communications with the 
states themselves, but I think of it as there was a lot more 
suspicion in 2016 of the Federal Government and the thought of 
its takeover of elections but I think that we were able to 
alleviate a lot of that concern.
    I think that this committee did a great job in allocating 
the $380 million to the states. They have stated to me, because 
we have gone around this country, the money would improve the 
process immensely, but it was a great down payment. They are 
looking to replace voting equipment. They are looking to 
replace election night reporting equipment. They are looking to 
replace registration equipment, and that requires resources. 
So, I think that as we look toward 2020, we want to continually 
have communications with the states but also ensure that they 
still have some skin in the game as well, and that was required 
with the 5 percent match, but also to ensure that we 
continually work together.
    Chairman Blunt. What about one of the questions and 
concerns we had near the end and after the 2016 election was 
the clearance relationship between state officials, critical 
local officials, and Homeland Security. Have we done anything 
to work on that where people, if they need to ask a question or 
need to be told specific information, are more likely to be 
told that than they would have been at an earlier time?
    Ms. McCormick. The Department of Homeland Security has been 
sponsoring getting clearances for state and local election 
officials. They have got, I think, three for each state at this 
point. We each have now finally gotten interim clearances. 
Commissioner Hovland has had his clearance from his time in the 
Senate. The rest of us are in the process of getting full 
clearance and we finally--I got mine just a couple of weeks 
ago. I got interim clearance.
    So, we are finally getting some more visibility on what is 
going on. We had not had clearances prior to just last month at 
all so hopefully that will help the situation. I know the 
Department of Homeland Security has been working on that. Also 
trying to get clearances for local election officials as well. 
So, I think that will help the situation.
    Chairman Blunt. Mr. Hovland, since you have had clearance 
the longest, on this issue is there a level of clearance that 
state and local officials can get that is not the clearance 
that the Commission has worked all this time now to get but can 
get in a way that allows enough sharing so that they know what 
they should be concerned about?
    Mr. Hovland. Thank you, Chairman Blunt. I would say that--
so the Department of Homeland Security to my understanding is 
getting state and local officials in at the secret level which 
is where we are targeted at. For your information, I was 
actually downgraded from when I was at the Senate. I do think 
it is unfortunate, but I really do think the bigger issue is 
about declassification. I know that has been talked about a lot 
but being able to get actionable information to state and local 
officials in a way that they can use that. There have been 1 
day read-ins. Certainly, where we are today is a much better 
place and so far beyond where we were in 2016.
    The Government Coordinating Council, the ability to have 
conversations with our Federal partners, with the Department of 
Homeland Security, with the intelligence community, and state 
and locals in the room has gone a long way to improve that 
communication. But again, I think, as Senator Klobuchar 
highlighted, the recent examples of Florida show that there is 
more work to be done and we hope to help push that ball 
forward.
    Chairman Blunt. Well, thank you. Obviously we are going to 
take time and have time for more than one round of questions, 
and I will come back with other questions later.
    Senator Klobuchar?
    Senator Klobuchar. Thank you very much, Mr. Chairman. Last 
month the Special Counsel's report concluded that Russia 
interfered in our election, as I noted in my opening, in a 
sweeping and systematic fashion. Among Russia's many targets 
were individuals and entities involved in the administration of 
our elections. Do you accept Special Counsel's Report, the part 
of the report that says that Russia interfered in our elections 
and that our elections remain a target for adversaries as the 
FBI Director has said as well as Director Coats. Could you each 
answer that question, commissioner, chair?
    Ms. McCormick. Thank you, Senator Klobuchar. Yes, of course 
we accept that, and we do acknowledge that Russia attempted and 
has interfered in our elections in many different ways, through 
social media and fake news, through trying to get through our 
registration systems. Fortunately, they did not get to our 
actual voting systems but that is something that we have to be 
especially concerned with that we keep those systems protected. 
But yes, we agree that that is what happened.
    Senator Klobuchar. Thank you. Just short answers.
    Mr. Hovland. Absolutely.
    Senator Klobuchar. Okay.
    Mr. Palmer. Yes.
    Mr. Hicks. Yes.
    Senator Klobuchar. Okay, thank you. Do you agree that 
states need modern voting machines that produce a voter 
verified paper ballot? Everyone? Is there anyone that 
disagrees?
    Ms. McCormick. Yes, that is a best practice that we 
encourage.
    Senator Klobuchar. Okay. I guess you can just tell me if 
you disagree. Anyone.
    Mr. Hicks. The only piece I would add to that is to ensure 
that those folks who have disabilities can still vote 
independently and privately.
    Senator Klobuchar. Very good point. Alright, Okay. Anyone 
disagree that post-election audits are an important way to 
confirm the results of an election?
    [No response.]
    Senator Klobuchar. No disagreement? Okay. Do you think we 
should have better information sharing with the states after 
what we just found out about Florida which was 2 years after 
the election? Anyone disagree with that?
    [No response.]
    Senator Klobuchar. Okay. Good. These are more specific 
questions about the EAC. Yesterday, Senator Coons and I led a 
letter expressing concerns about the lack of technology experts 
currently employed by the Commission. The EAC's Acting Director 
of Testing and Certification quit. I understand that a new 
Director was suddenly appointed and that the Commission just 
announced two additional hires. However, reports indicate that 
the new Director of Testing and Certification will be working 
full-time from Colorado. Do you anticipate any issues arising 
from the fact that the person in charge of certifying our 
election equipment will be working nearly 2,000 miles from EAC 
headquarters, commissioner, chair?
    Ms. McCormick. I do not expect there to be issues. He is 
going to be located near one of our testing laboratories and in 
this day and age there is no reason why we cannot conduct 
business from different parts of the country, which we do 
already.
    Senator Klobuchar. Okay. Anyone want to add to that?
    [No response.]
    Senator Klobuchar. Okay. Part of the EAC's mission is to 
develop standards for voting equipment and those standards are 
then used to certify the machines that are then used in our 
elections. You are in the process of updating the standards of 
Voluntary Voting System Guidelines and will soon vote on the 
high-level principles that will guide the development of the 
technical certification requirements. I am aware there is some 
debate over whether the EAC's technical requirements, which are 
the intricate mechanical parts of the requirements, should also 
require full vote by the commissioners. I know that some of you 
have said that the technical requirements amount to policy and 
should be voted on by the commissioners.
    I am worried about a scenario where the guidelines don't 
keep up with the advancements in technology and cybersecurity 
best practices. The guidelines, as you know, have not been 
updated in years and every voting machine certified by the EAC 
has been certified against a standard that was developed in 
2005. The Standards Board and Advisory Board as well as a 
National Association of Election Directors have all strongly 
recommended that the EAC allow these technical requirements to 
be updated without a vote from every commissioner. Before you 
vote on the VVSG 2.0, would you support a policy that allows 
EAC technical staff to work with outside experts to update the 
technical certification requirements without requiring a full 
commissioner vote on every change?
    Ms. McCormick. Thank you for the question, Senator. We are 
waiting on a legal opinion on whether that complies with HAVA. 
I think that is important. Also, with the Administrative 
Procedures Act, there needs to be a way for positions to be 
appealed under the APA. We are not sure exactly how that 
applies with the Voluntary Voting System Guidelines. I believe 
that we need to have oversight. I believe that is why Congress 
put the Commission in place----
    Senator Klobuchar. So, if they ruled that it was okay under 
HAVA, then would it be alright?
    Ms. McCormick. I would have to take a look at that. I do 
not know at this point. I tend to think that we should follow 
the process that has been set forth in HAVA provided by 
Congress.
    Senator Klobuchar. Yes, but what if they said it was okay, 
you know, under HAVA? The legal opinion?
    Ms. McCormick. I would have to take a look at that, 
Senator.
    Senator Klobuchar. Okay. Anyone else? Mr. Hovland.
    Mr. Hovland. Two points I would add to that or just, you 
know, first of all the Voluntary Voting System Guidelines are 
voluntary for the states to use and so I think it is crucial 
for us to provide a product that they want and that they will 
use. That is how we have realized the full benefit of the 
Voluntary Voting System Guidelines. I will say I think we 
should strive to produce that product but a lot of the 
criticism as well or as far as people wanting us to not vote on 
it is related to the fact that we have lost a quorum over the 
years, and I would just flag that my seat was vacant for 9 
years, 11 months, and 7 days. I am hopeful that we do not lose 
a quorum for that long in the future.
    Senator Klobuchar. Okay. Very good. Just one last question 
on this. Commissioner Hicks, should the EAC update its policy 
to include a sunset on the use of old standards in certifying 
voting equipment? What do you think?
    Mr. Hicks. I would think that we would look toward ensuring 
that, as Commissioner Hovland stated, that these are voluntary 
guidelines. So, if a state is still using the same systems 
under those guidelines, then they should still be certified to 
those guidelines. Then if we are going toward new equipment, 
then that new equipment should be certified to the new 
standards.
    Senator Klobuchar. Alright, thank you.
    Chairman Blunt. Senator King?
    Senator King. Chair, am I correct that voter registration 
systems are entirely exempt from your purview and 
recommendations? Is that correct?
    Ms. McCormick. We provide best practices, but we do not 
certify voter registration systems. That is correct.
    Senator King. So, you supply voluntary best practices. 
Don't you think that registration systems and voting systems 
are inextricably intertwined? Perhaps you could write a 
recommendation to this committee that we might want to consider 
further discussion of the issue of the security of registration 
systems. Anybody?
    Mr. Palmer. Senator, I think that is a great idea. Coming 
from the state----
    Senator King. Could the record show what he just said, I 
like that. Go ahead.
    Mr. Palmer. Coming from the state, the states are obviously 
very interested in making sure that their statewide voter 
registration systems are secure and accurate pursuant to HAVA.
    EAC has conducted a number of studies on interoperability 
and accuracy about registration systems. It may be something 
that the EAC could play a role in auditing and providing some 
recommendations to the states but that would require a change 
to HAVA to allow the EAC to play that role. I believe we are a 
trusted actor. You know, dealing with states and as a former 
Director and Secretary in Virginia, I believe that that would 
be sort of a positive approach that the EAC could take. I 
believe it that that is a good idea.
    Senator King. Thank you. Madam Chair, how many full-time 
people do you have working on certification of voting machines?
    Ms. McCormick. Right now, we have two. We have just hired 
two more. One has resigned, effective at the end of this week, 
so we will have three.
    Senator King. The ranking member mentioned you are 
certifying to a 2005 standard. Is that true?
    Ms. McCormick. So, the Voluntary Voting System Guidelines 
were originally created in 2005, which we call VVSG 1.0. When 
Commissioner Hicks and I joined the Commission, the Commission 
at that time in 2015 passed an update to that set of 
requirements since they had not been updated in a long time----
    Senator King. Was that what is being used for current 
certification?
    Ms. McCormick. So, no manufacturer has brought in a system 
to be certified under what we call 1.1, and we are in the 
process of setting the new standards 2.0, but all of the 
systems out there now are certified to 1.0 and not to 1.1.
    Senator King. Which is 2005?
    Ms. McCormick. Correct.
    Senator King. Do you think that is a problem?
    Ms. McCormick. Yes, we do.
    Senator King. Thank you.
    Ms. McCormick. We are trying to remedy that, Senator.
    Senator King. There was an Office of Personal Management 
review of the operation of the EAC in September through 
February 18. Without going into the content, are you all aware 
of that study? Have you seen copies of it? Has it been 
distributed to senior management in the agency?
    Ms. McCormick. So, we were provided a redacted copy last 
week. When Senator, or excuse me, when Commissioner Hicks and 
I----
    Senator King. When was the study completed?
    Ms. McCormick. I am not sure exactly. Some time in the past 
year.
    Senator King. February 2018. Why in the world did it--the 
mail is not that slow. Why did you get it last week?
    Ms. McCormick. No, well we--the commissioners do not have 
any part of hiring at the Commission. That is the purview----
    Senator King. But are you concerned with how the agency is 
managed, are you not?
    Ms. McCormick. We are and we asked for the Executive 
Director to partner with OPM to review the resources that we 
had available to us, which are obviously much fewer.
    Senator King. So, when did the Executive Director get the 
study?
    Ms. McCormick. That I do not know.
    Senator King. Would you like to know?
    Ms. McCormick. Sure.
    Senator King. Does it not bother you that you just got it 
last week and it was completed in February. That strikes me 
as----
    Ms. McCormick. He told us that he had received it and that 
they were working on the recommendations.
    Senator King. But he didn't give you a copy?
    Ms. McCormick. No.
    Senator King. I do not understand that as you are the 
manager of the Board of Directors of this organization. To not 
care about a major study on the operation of the organization, 
which to my understanding was not very complimentary.
    Ms. McCormick. Well we were briefed on what he was doing, 
and we do not involve ourselves in the hiring process. HAVA, 
specifically----
    Senator King. This is not hiring, this is managing. I am 
not talking about the hiring----
    Ms. McCormick. It has to do with restructuring the 
personnel in our office and I feel that that may have some 
political implications and we thought that it was best to leave 
it up to the Executive Director to decide that. He manages the 
staff on a day-to-day basis, we do not, and it is not policy.
    Mr. Hovland. I would add, I was asking for that and was 
glad to finally receive it. We previously----
    Senator King. Instead of current events, it is now history.
    Mr. Hovland. I think one of the important things or one of 
my big takeaways on it was that both the OPM flagged that, No. 
1, that we don't have the resources we necessarily need to meet 
our statutory obligations.
    Senator King. Yes, three people to certify all the voting 
machines in America doesn't sound like adequate staff to me.
    Mr. Hovland. That is correct Senator. The other part I 
would add is that while I think there are important things in 
that report that we should address and absolutely need to be 
held accountable for, I think one of the real challenges that 
our agency has faced is for the better part of the last decade 
we have been a political football and we have had our funding 
continually cut.
    And when you look at, actually Mr. Chairman, I was in 
Kansas City last week and I was telling someone about the 
status of our budget, our operating budget, was $7.95 million 
for this Fiscal Year and they could not believe it, and they 
said, we spend $8 million on potholes in Kansas City. I thought 
that cannot be true, so I Googled it, by the way there is a lot 
out there on potholes in Kansas City, but they are on top of 
it. They are doing a great job, but they recently upgraded 
their budget to $17 million for street maintenance in Kansas 
City.
    And that is a little bit beyond potholes, that is also 
mowing and things like that, but the point is, what we are 
working on and what we are working on with our state and local 
partners is the infrastructure of our democracy. What we need 
is an investment from Congress to help us do that work and to 
be able to restore us to the levels we were at in 2010 where we 
had 49 employees. That gives us so much more capacity to help 
state and locals do the extremely difficult job they have.
    Senator King. I appreciate that and I will support that.
    Mr. Hovland. Thank you.
    Senator King. Thank you. Thank you, Mr. Chairman.
    Chairman Blunt. Thank you, Senator King.
    Senator Durbin?
    Senator Durbin. Thank you, Mr. Chairman. Sorry I was late, 
but ironically I have been at an intelligence briefing and a 
large part of it has been about the Russians invading our 
election machinery. So, it seems like it is my day on Russian 
involvement in our elections. We take this pretty personally in 
Illinois. In June 2016 the Russians hacked into our voter file.
    Fortunately for us, they did not pull off any tricks to 
make it tough for people to vote but we know it happened. It 
has been verified now and reported publicly, and we knew it at 
the time. So, it was possible, and it happened, and it could 
have made it extremely difficult for innocent people, legally 
entitled to vote, to exercise their right to vote in 2016. They 
did not. We do not want them to ever do that again. What I 
learned this morning was that since the middle of 2017, with a 
very modest down payment, we started intelligence efforts to 
stop them from making a mess of the 2018 election and of course 
2020, with some success in 2018, the whole story has not been 
publicly reported but we made pretty substantial investments 
understanding that they were investing everything they could to 
try to undermine our election process.
    There are a number of bills that are pending before 
Congress, and I think some of them before this committee, on 
the subject of election integrity. Mr. Chairman, I was not here 
at the beginning. Are we going to be marking up any of those 
bills on election security?
    Chairman Blunt. It was not a topic of discussion today but 
at this point I do not see any likelihood that those bills will 
get to the floor if we mark them up.
    Senator Durbin. Why?
    Chairman Blunt. The same reason we could not get our bill 
to the floor last year.
    Senator Durbin. Which is?
    Chairman Blunt. I think the Majority Leader just is of the 
view that this debate reaches no conclusion and frankly I think 
the extreme nature of HR1 from the House even makes it less 
likely that we are going to have that debate.
    Senator Durbin. Well I would hope----
    Chairman Blunt. But we are having this hearing. We are 
talking today how we interface with state and local officials 
who do have this responsibility to conduct elections, and I 
think we should have that.
    Senator Durbin. I thank you for that. I hope you catch the 
irony here that at the CIA and intelligence agencies millions 
of dollars are being spent to stop the Russians from making a 
mess of the 2020 election, and yet in the U.S. Senate we cannot 
bring a bill to the floor to be even debated. Does not speak 
very well of us. I mean I think the Mueller report was right. 
It was sweeping and systemic and Illinois is evidence of it, 
and they are coming at us again. They may not be alone in their 
efforts, and shame on us if as elected members of the Senate we 
can't even bring the matter to floor for vote or debate.
    I think we have an obligation, more than anything, to make 
sure that the integrity of our elections and democracy is 
protected. So, several years ago, I had an opportunity to 
travel as Chairman of the Subcommittee Judiciary and my topic 
was voter fraud. I went to Ohio and I went to Florida. In both 
of those states, I convened a hearing and I brought in election 
officials from both political parties, put them under oath, and 
asked them the following question. What is the incidence of 
voter fraud in your state, Ohio, Florida, what is the incident 
of voter fraud in your state which led you to decide to require 
voter IDs and to limit the opportunities, at times, when people 
can vote? And the answer from Republicans and Democrats alike 
in both states was the same, none.
    No prosecution for voter fraud in either of those states. 
Maybe one. No incidents of voter fraud reported and yet there 
is a movement in this country sponsored by groups like ALEC to 
make it more difficult for people to vote. To limit the 
opportunity period to vote. To require voter IDs without any 
evidence that there is voter fraud of any magnitude going on 
today. So, I ask anyone of you if you believe that there is 
evidence of widespread voter fraud in any state that you have 
come across now that would lead you to believe that we need to 
restrict the opportunities for people to vote in this country?
    Mr. Palmer. Senator Durbin, the EAC is--our job is to help 
the states, to help voters vote. That is our mission. There may 
be incidents of voter fraud, there may be incidents of cyber 
intrusion, and that dramatically hurts voter confidence. It 
makes our job tougher, but we are going to strive, and I know 
that as we go across the country, we are hardening our 
electoral systems across the country and we are preparing, as 
we did in 2018, for 2020. Our job is to try to mitigate these 
concerns of the voter confidence so they can have confidence in 
our systems.
    Senator Durbin. I want the machines to work. I want to be 
confident in the results that come out of the machines, but I 
want to give the average American who has a life to live, maybe 
a job to go to, children to care about, an opportunity to vote 
that is easier rather than harder. I do not know why we make it 
more difficult across this country for people to vote, 
particularly when there is no evidence of widespread voter 
fraud. There is a fellow Professor named Justin Levitt----
    Senator King. Except in North Carolina last fall.
    Senator Durbin. That is true. Justin Levitt found 31 
incidents of voter fraud out of hundreds of millions of votes 
casts since 2000. So, all this talk now you need an ID card, 
now you can't vote on Sunday before the election, now the early 
voting period is going to be restricted. Why? Why are we doing 
this in this country?
    I mean I am a politician who submits my name to the voters 
in Illinois. So far they kind of like me but they may decide 
the other way. If it is a fair and free election, I accept the 
outcome but restricting people's opportunities. We may have the 
best machines in the world but if people cannot get in to vote 
and there is an opportunity to vote, shame on us again. I think 
that is the bottom line here as far as I am concerned. Thank 
you, Mr. Chairman.
    Chairman Blunt. Thank you, Senator. Senator King, I would 
point out that the last time a member of the House of 
Representatives wasn't seated because of voter fraud was about 
90 days ago. So, there is voter fraud. The last election we had 
have over in Missouri because of voter fraud----
    Senator King. Yes, but the North Carolina specifically.
    Chairman Blunt.--was about 18 months ago. All of us don't 
have the benefits of the clean history of Illinois elections 
and we have to try to live with that. Back to my questions, 
what is the difference--just to be sure I am clear on this, and 
I do not disagree with the idea that we should have some advice 
to give, maybe even certification of registration systems--but 
explain to me the Voluntary Voting System Guidelines. How is 
that different from best practices since it is voluntary--
Voluntary Voting System Guidelines is the certification, the 
stamp of approval, that you give a voting systems services 
company, is that the key there? Nobody has to follow that but 
is the theory that nobody would buy a system that didn't meet 
these Voluntary Voting System Guidelines? I am just trying to 
figure out the difference in that and best practices on the 
voter registration front.
    Mr. Hovland. I am happy to jump in there. So, yes, the 
Voluntary Voting System Guidelines are, as they say, voluntary. 
Now after HAVA passed, a number of states did adopt laws to say 
that they needed to use machines that were certified under that 
program. That is certainly part of it, but we have seen some 
states also create their own testing and certification programs 
either to supplement our existing programs, and then some 
states, all states are certainly, depending on their state law, 
are free to purchase equipment, regardless of whether it has 
been tested to that program.
    One thing I would flag though, as it relates to statewide 
voter registration databases, is that the Help America Vote Act 
was the impetus for people to create and adopt statewide voter 
registration databases across the country, and so while voting 
machines existed when that law passed, very few people had 
statewide voter registration databases. I think to Senator 
King's point, you know, and we are happy to provide best 
practices around those systems and, or securing them, but I 
would say that there has not been necessarily a congressional 
look at that since HAVA passed, and that would be a historic 
change since that legislation.
    Chairman Blunt. Mr. Palmer, you said you thought it would 
be a good idea to look at, I guess you are talking about 
statewide systems. Do you also think it would be a good idea to 
have guidelines for local voter registration systems, which are 
generally the ones, I think, that are used on election day?
    Mr. Palmer. My first instinct is to respond, I think that 
as I look at the infrastructure across the country and the EAC 
potentially reviewing voter registration systems or electronic 
poll books, we need to take baby steps with this. My initial 
view would be, let us see how it works as we work with states 
and, you know, we are taking a look at voter registration 
systems before we also look at county voter registration 
systems. I would urge caution and sort of baby steps in this 
area.
    Ms. McCormick. Chairman Blunt, if I could clarify. There is 
a difference between requirements under the Voluntary Voting 
System Guidelines and best practices. Requirements are what we 
use to inform the manufacturers of the standards they have to 
meet to get certification. Because we have a national standard, 
almost all the vendors will design their systems to meet those 
requirements, whether the states require them or not. They are 
voluntary for the states to adopt or not adopt, but in fact 
what ends up happening is that the vendors all design their 
systems to our requirements so that they can get certification. 
Best practices are what we compiled from the states on how 
elections should be run and the best way they should be run, 
and those are our recommendations.
    Chairman Blunt. So, the vendors are voluntold what they 
should do?
    Ms. McCormick. Exactly.
    Chairman Blunt. Got it. They do comply?
    Ms. McCormick. Yes, they do.
    Chairman Blunt. Because the imprimatur of the EAC matters 
to them as they offer their product?
    Ms. McCormick. It matters to them and it matters to the 
state and localities that are buying those systems. Yes, sir.
    Chairman Blunt. Senator Klobuchar?
    Senator Klobuchar. Thank you, Mr. Chairman. In 2017 the 
Department of Homeland Security designated election systems as 
critical infrastructure. This designation did not do anything 
to diminish the role that state and local governments play in 
administering elections. It also did not ensure that states 
receive additional funding to help secure this ranking of 
critical infrastructure. Instead, the designation means that 
election infrastructure sectors are eligible to receive 
prioritized assistance, particularly cybersecurity assistance 
from the Department of Homeland Security. Do you agree with 
designating it as critical infrastructure, and can you provide 
an update on your work with Homeland Security? Maybe chairman.
    Ms. McCormick. I do agree with the critical infrastructure 
designation. There was some concern at the beginning that it 
was a Federal overreach. I think that that has been tempered 
down quite a bit. There is still a standing resolution from 
NASS, the National Association of Secretaries of State, 
opposing critical infrastructure, but I believe almost all the 
secretaries now are onboard, and we are all working together 
with the Department of Homeland Security to assure that we 
maintain election security throughout the Nation.
    Senator Klobuchar. That coordination with Homeland Security 
and your agency, how is that going?
    Ms. McCormick. That is going quite well. I met with 
Director Kolasky last week and we had a very good meeting and 
worked on discussing different places that we could combine our 
efforts to continue to support the states and the localities 
and securing their systems and mitigating the risks involved.
    Senator Klobuchar. Anyone want to add anything on that?
    [No response.]
    Senator Klobuchar. Okay. Under the President's budget 
proposal, some of my colleagues were talking about budget and 
the need for resources. I appreciate the support for resources 
but under the budget proposal, the EAC's operations budget 
would be cut by nearly $1 million. In your testimony 
Commissioner McCormick, you emphasize the need for additional 
resources. Could you elaborate on that?
    Ms. McCormick. Yes. As was mentioned the last time we had a 
quorum, or four commissioners, was in 2009 and our budget was 
double what it is now. We had 49 employees, we are down to 22. 
We have additional requirements now that we did not have in 
2009 and 2010, including the election security piece. Right 
now, we are taking from other parts of our mission to cover 
those areas that we are not funded to do, and I think that is a 
priority for all of us that that gets done, but we would like 
to hire more staff and create more programs that would benefit 
the states and localities in supporting election security as 
well as everything else that is required under elections.
    We have included in our testimony a wheel of competencies 
that are all the different areas that election administrators 
need to be responsible for, including security as one plank on 
that wheel. But there are a lot of parts to that wheel and we 
need to support all of those. Right now, our resources are 
strained. Our human resources, our financial resources, and we 
are doing the very best that we can to meet our mission, but we 
are in the need for additional resources.
    Senator Klobuchar. I appreciate that. Mr. Hovland.
    Mr. Hovland. I would just add that, you know, to echo what 
the Chairwoman said, that that is a real need, and when you 
look at also our submitted testimony, we outlined and there is 
a graphic that shows where we had staff in 2010 versus today in 
various departments. When you look at that, you can see, you 
know, there are many areas where we have one staffer right now. 
We don't have the ability--our General Counsel's Office, for 
example, we have one attorney working as an attorney. In 2010, 
there were six, and I am not saying whether that was the right 
number, but we have a number of areas where when someone is out 
of the office, and we need that person, things grind to a halt 
and that is unacceptable. We need to be able to build and act 
as a mature agency. We need the resources to do that and to 
ensure there are backups and sufficient staffing in all of our 
divisions.
    Senator Klobuchar. Yes, very good. Thank you. One last 
question. Under the Help Americans Vote Act, the Executive 
Director and General Counsel are appointed for 4 year terms and 
the current terms for both positions are ending this November. 
When a vacancy exists for either of these positions, the 
Standards Board and the Board of Advisors both create a search 
committee to recommend candidates and you all ultimately take a 
vote to select the Executive Director.
    This process can take time, and as we head into the 
upcoming election, it is important for the EAC to have strong 
and stable leadership, and this means, I would think, ensuring 
that the Commission has a list of candidates to consider. When 
will you hold a vote, this is for you chair. When will you hold 
a vote to ensure that the Standards Board and the Board of 
Advisors can begin their search for Executive Director and 
General Counsel?
    Ms. McCormick. Thank you for the question, Senator 
Klobuchar. As you said, HAVA has a process and we will follow 
that process. So, when there is a vacancy, we will begin that 
process. However, we do need to note that it takes quite a 
while to go through that process, and it is a concern of mine 
that we do not have an Executive Director or General Counsel 
during a Presidential year. So, we need to work on how we are 
going to fix that situation and----
    Senator Klobuchar. Is there--can you start the search ahead 
of time somehow?
    Ms. McCormick. Well, HAVA says that we have to wait for a 
vacancy, and that is when the executive search committees get 
appointed, as you mentioned.
    Senator Klobuchar. Anyway, Okay. Because it would be--we 
will work with you on this. We just have to figure out some way 
to get this done as we head into this election I would think.
    Ms. McCormick. I appreciate that. We do have competent 
leadership in place right now, and I place my trust in them 
right now. So, thank you for that.
    Senator Klobuchar. Alright. Thank you.
    Chairman Blunt. Just to followup, is there anything that 
prevents you continuing that leadership if that is what the 
Board decides to do, and the leadership are willing to stay?
    Ms. McCormick. No. We need to have a vote to continue their 
terms but there is nothing that prevents us from----
    Chairman Blunt. When would their terms end again?
    Ms. McCormick. In October of this year.
    Chairman Blunt. Of this year. Your point, Senator 
Klobuchar, is obviously that would put you into next year if 
this all does not work out and you have to make a change. It 
sounds like the law itself is something maybe we can look at 
and see if there is something we could do there. But let us 
continue to talk about that. Senator King and then Senator 
Udall.
    Senator King. Thank you, Mr. Chairman. I want to be sure I 
heard something correctly. Your budget today is one half of 
what it was in 2010?
    Mr. Hovland. Yes.
    Ms. McCormick. That is correct.
    Senator King. That is unbelievable. I mean that is like 
cutting the budget to the fire department in the middle of a 
five-alarm fire. We have never had such a serious attack on our 
electoral system as we have had in the last 3 years and your 
budget is 50 percent of what it was 9 years ago. I mean----
    Senator Klobuchar. I would note the Administration was 
trying to cut it another million.
    Senator King. I just----
    Chairman Blunt. If we are noting that then you should also 
note that the Commission went out of existence when the other 
party was in power of both the Senate and the White House.
    Senator King. I am not making a partisan point. I just 
think----
    Chairman Blunt. No, but I think Senator Klobuchar just did. 
The reason this Commission is where it is, is a lot of the work 
that the Commission is supposed to do didn't have a Commission 
to do it. It is like that is why the standards are 2005 
standards. There is nothing imminent that has caused this 
problem.
    Senator Klobuchar. Okay, but I think that--yes, but now 
that we have a quorum, the fact remains that it is half of what 
it was, and the Administration knowing that we have a quorum 
and knowing that we are in a situation----
    Chairman Blunt. Well, the budget did not get to be half of 
what it was in the last 2 years or 4 years. The budget got to 
be half of what it was----
    Senator King. I am not casting blame, Mr. Chairman. I think 
we ought to----
    Chairman Blunt. Exactly, let's just be sure we are forward 
looking.
    Senator King. Absolutely. I am just saying we are in a very 
serious situation in our election and this organization----
    Chairman Blunt. We are. We are. And I, will now give you 
some time back here.
    Senator King. Thank you, sir. Can a machine be certified 
today under the 2005 standard that does not have a paper 
backup, a paper record? Say yes or----
    Mr. Hicks. Yes, it can.
    Senator King. Okay. I am concerned about that. Can a 
machine be certified today that is connected to the internet 
under the prior standard or the standard that we are operating 
under? You want to take that under for the record?
    Ms. McCormick. We will take that for the record. It is more 
complicated than that. There are different ways like modems and 
things that are attached to machine so----
    Senator King. But clearly best practices are paper backup, 
not connection to the internet. I mean, I have been through a 
dozen hearings in two, three different committees on this. I 
mean, it is just if we are certifying machines that are somehow 
connected to the internet or that don't produce a paper backup, 
then we are clearly not fully protecting our citizens. I think 
you made this point, Madam Chair. You can provide best 
practices to anybody, right.
    I mean it seems to me that is something you can do. It is 
not mandatory, it is voluntary, but one of the advantages you 
bring to bear is a national perspective and you can learn what 
is going on in all the states. If I were Illinois or 
Massachusetts or wherever Idaho who is doing something really 
effective and good, then you can act as a clearinghouse and 
provide that as a best practice. I hope you will do that. It 
seems to me there is power in that, even though it may not be 
mandatory. Those would be the points I dislike. I am not in the 
Appropriations committee, but I would like to volunteer to try 
to help on this funding question because I think these folks 
are trying to do a very important, complex job and we want to 
make sure they have the resources to do so. Thank you very much 
for your testimony.
    Ms. McCormick. Senator if you want--I just got passed a 
note from the staff to assure you that the VVSG does not allow 
for internet connectivity.
    Senator King. Good.
    Ms. McCormick. The other part that you were talking about 
is the clearinghouse and that is one of our main missions at 
the EAC and that is one of the things that we spent a lot of 
time on.
    Senator King. Good. I appreciate that. Thank you very much.
    Chairman Blunt. Well, thank you Senator King.
    Senator Udall?
    Senator Udall. Thank you very much, Chairman Blunt. Mr. 
Hicks, as you are aware and this confirms some of what I am 
sure all of you have been saying today, paperless voting 
machines are widely considered too insecure for use in modern 
elections and post-election audits are necessary to confirm the 
outcome of the election. My For The People Act and Senator 
Klobuchar's Election Security Act require states use paper 
ballots. My bill provides the voter an opportunity to correct a 
ballot should a mistake be made.
    I am concerned that there are still some jurisdictions in 
the U.S. that continue to use paperless voting machines which 
makes it difficult or impossible to independently audit 
election results. Furthermore, many states still rely on aging 
voting systems that are susceptible to breaking down or may be 
vulnerable to malicious actors. As we head into a new 
Presidential election next year, where are we on addressing 
these and many other issues with voting machines, and what is 
the timeline for ensuring that every jurisdiction has access to 
and can take advantage of the latest and secure voting systems?
    Mr. Hicks. Thank you, Senator. First I want to say I am 
sorry to hear that you are not running for re-election.
    Senator Udall. Will not waste any time on that----
    Mr. Hicks. I will stay at my 5 minutes. Second, I would say 
that jurisdictions are free now to buy voting equipment that 
adhere to those standards. The question becomes can they afford 
that, and the answer is no, so they need additional resources. 
The $380 million that was given last year was a great down 
payment, but the states are still looking for additional 
resources. The Commission is now working on our Voluntary 
Voting System Guidelines 2.0 and we will be holding our third 
and final hearing this coming Monday.
    We had one in Memphis, Tennessee. We had one in Salt Lake 
City, Utah. I think that we got a lot of information from both 
of those, and I am looking forward to hearing from the 
electorate on Monday. I think you are 100 percent correct in 
terms of ensuring that the best way, and this is what we have 
heard from our folks at the Department of Homeland Security and 
others, that in order to accurately have an audit of a voting 
equipment you need some sort of paper trail. But again, I would 
like to state that we want to ensure that those folks who have 
disabilities can still vote independently and privately under 
the law.
    So, there is no reason that we cannot have security and 
accessibility now, especially since we have, in our pockets 
these computers that are more powerful than the machines that 
took man to the moon 50 years ago this year. So, I think that 
this Commission we need to continually work hard for this, and 
I have heard this from a lot of different folks over the issue 
that I would like to also state that I would like to give a 
written response for the record so that my words from previous 
hearings are not misconstrued.
    Senator Udall. Yes, no that would be great. I just wanted 
to focus on the issue. Thank you for your kind comment, and I 
am going to continue public service. This one is to the whole 
committee, we know that in 2016 Russian cyber actors were able 
to access voter databases and election software systems in 39 
states and actively spread misinformation to try and destroy 
Americans' confidence in our election process. How is the EAC 
engaging with experts in the intelligence community and law 
enforcement who warn that foreign actors may attempt to do the 
same thing again in 2020? What is the EAC doing to help 
election officials across the country to secure their systems 
against foreign cyberattacks and limit the effects of 
misinformation and influence operations designed to disrupt our 
elections?
    Mr. Palmer. Senator, we go across the country and we speak 
to election officials. For example, the EAC just hosted two 
meetings, our Standards Board meeting and our Board of Advisors 
and we had ODNI come in and provide an intelligence briefing to 
these election officials. Then we also have the Department of 
Homeland Security there to provide, as a Federal partner, 
additional resources with the EAC on how state and local 
election officials can mitigate these threats. We feel that 
this is, we are educating them, we are informing them, 
providing the tools. Obviously the states care a lot about this 
issue and are doing a lot at the state and local level and we 
are just preparing for 2020.
    Senator Udall. Any of the other Commissioners want to 
comment on that?
    Mr. Hovland. I would add that again our work through the 
Government Coordinating Council has been very productive in 
helping with information sharing, and that we have a long list 
of resources, some of which were included, I think, in our 
testimony, but we are happy to add to that what we have 
provided to state and locals. But additionally, with work 
around the grant money, the $380 million from Fiscal Year 2018 
we were able to see sort of the states choose from a menu of 
options on security, whether that is upgrading their statewide 
registration database, employing cyber navigators, replacing 
equipment, and we have made all those plans public so that 
other states can see what they do.
    And as not all states are spending the money at the same 
time and so a lot of them reach out to our office, reach out to 
our grants department and discuss what steps they can take, and 
they are able to see what their colleagues are doing in other 
states and take advantage of that to also upgrade their systems 
accordingly.
    Senator Udall. Thank you. Thank you, Mr. Chairman.
    Chairman Blunt. Other questions?
    [No response.]
    Chairman Blunt. On the funding issue, I think the fact that 
the Commission is in place helps. The issues of things like if 
you don't have a Commission, how do you update the standards, 
are important issues for us to try to be helpful with you on. 
On that topic, are you looking at the 2005--is that what the 
voluntary standards effort that you are making right now is, to 
update those standards? One other question that I have is how 
many states still have election systems without a paper trail?
    Mr. Palmer. I believe, Mr. Chair, I believe it is less than 
five at this point. States are--at least I would say one or two 
of the states, I think it was five, are moving toward different 
solutions. For example, Georgia. I know South Carolina is 
considering. So, there has been some movement toward paper-
based systems for those remaining DRE states. We are working on 
VVSG 2.0. It is going to be an improvement to 1.0, 1.1 We are 
trying to bring the decade of technology from 1.0 to the new 
standards in 2.0, so we can bring the technologies of security 
and accessibility to the voters.
    Mr. Hovland. I would just echo Senator Udall mentioned the 
jurisdictions without paper and again historically you have 
heard the number, it is five states and then a variety of 
partial states. None of the state and local officials that I 
have ever talked to want paperless equipment. It is about 
having the resources necessary to replace that equipment. Most 
of that was bought with the original HAVA grants and so states 
have tried to figure out how to replace that equipment. In some 
jurisdictions it has been a challenge, and then I would echo 
Commissioner Palmer absolutely. VVSG 2.0 is a critical move to 
move our standards with the Voluntary Voting System Guidelines 
to be in line with other industries and other technology 
industries, as I mentioned earlier, so that we are able to 
improve the infrastructure of our democracy.
    Chairman Blunt. Thank you. Any further comments from the 
panel? Senator Klobuchar? Senator King?
    Senator Klobuchar. No, just thank you very much for your 
work. I think you saw by the number of interesting questions 
here, and thoughtful remarks about how important the next year 
is, that we are very focused on this. We are glad you have a 
quorum, and I think you should be assured we are going to keep 
pushing to make sure that you have the resources to do your 
jobs and also that the jobs get done. So, thank you.
    Chairman Blunt. Thank you, Senator. Thanks to our panel, 
and the Committee is adjourned.
    [Whereupon, at 3:46 p.m., the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  

                                  [all]
</pre></body></html>
